                               SOCIAL SECURITY
                                        November 9, 2009


The Honorable Michael J. Astrue
Commissioner


This letter transmits the Independent Auditor’s Report on the audit of the Social Security
Administration’s (SSA) Fiscal Year (FY) 2009 financial statements. The Report includes the
Office of the Inspector General’s (OIG) Opinion on the Financial Statements, Report on
Management's Assertion About the Effectiveness of Internal Control, and Report on Compliance
and Other Matters.

Objective of a Financial Statement Audit

The objective of a financial statement audit is to determine whether the financial statements are
free of material misstatement. An audit includes examining, on a test basis, evidence supporting
the amounts and disclosures in the financial statements. An audit also includes assessing the
accounting principles used and significant estimates made by management as well as evaluating
the overall financial statement presentation.

The OIG’s audit was conducted in accordance with auditing standards generally accepted in the
United States; Government Auditing Standards issued by the Comptroller General of the United
States; and Office of Management and Budget (OMB) Bulletin No. 07-04, Audit Requirements
for Federal Financial Statements. The audit included obtaining an understanding of the internal
control, testing and evaluating the design and operating effectiveness of the internal control, and
performing such other procedures as considered necessary under the circumstances. Because of
inherent limitations in any internal control, misstatements because of error or fraud may occur
and not be detected. The risk of fraud is inherent to many of SSA’s programs and operations,
especially within the Supplemental Security Income program. In our opinion, individuals
outside the organization perpetrate most of the fraud against SSA.

Audit of Financial Statements, Effectiveness of Internal Control, and Compliance with
Laws and Regulations

The Chief Financial Officers (CFO) Act of 1990 (P.L. 101-576), as amended, requires that SSA's
Inspector General (IG) or an independent external auditor, as determined by the IG, audit SSA's
financial statements in accordance with applicable standards. For comparative purposes, under a
contract monitored by the OIG, PricewaterhourseCoopers LLP (PwC), an independent certified
public accounting firm, audited SSA’s FY 2008 statements and issued an unqualified opinion on
those statements. The OIG audited SSA’s FY 2009 financial statements and OIG issued an




            SOCIAL SECURITY ADMINISTRATION               BALTIMORE MD 21235-0001
Page 2 - The Honorable Michael J. Astrue


unqualified opinion on those financial statements. The OIG also reported that SSA's assertion
that its internal control over financial reporting was operating effectively as of
September 30, 2009 was fairly stated, in all material respects, based on criteria established under
OMB Circular A-123, Management’s Responsibility for Internal Control.

The OIG did identify a significant deficiency related to protecting information. In general, SSA
needs to establish and implement a policy to periodically reassess the content of security access
rights to ensure that employees and contractors are given least privilege access to perform their
job.

The OIG identified no reportable instances of noncompliance with the laws, regulations, or other
matters tested.




                                                     Patrick P. O’Carroll, Jr.
                                                     Inspector General

Enclosure
                                                                                                           Enclosure




                               OF F I CE OF TH E I N S P E CTOR GE N E R A L
                          INDEPENDENT AUDITOR’S REPORT

November 9, 2009
The Honorable Michael J. Astrue
Commissioner


In accordance with the Chief Financial Officers (CFO) Act of 1990 (Public Law 101-576), as amended, we are
responsible for conducting the financial statement audit of the Social Security Administration (SSA). In our audit of
SSA for Fiscal Year 2009, we found the following.

The consolidated balance sheets of SSA as of September 30, 2009 and 2008 and the related consolidated statements
of net cost and of changes in net position and the combined statements of budgetary resources for the years then
ended and the statement of social insurance as of January 1, 2009, 2008, 2007, and 2006 are presented fairly, in all
material respects, in conformity with accounting principles generally accepted in the United States of America.

Management fairly stated that SSA’s internal control over financial reporting was operating effectively as of
September 30, 2009.

SSA’s financial management systems substantially complied with the requirements of the Federal Financial
Management Improvement Act of 1996 (FFMIA).

No reportable instances of noncompliance with laws, regulations, or other matters tested.

The following sections discuss in more detail (1) these conclusions; (2) our conclusions on Management’s
Discussion and Analysis and other supplementary information; (3) our audit objectives, scope, and methodology;
and (4) Agency comments and our evaluation.

OPINION ON FINANCIAL STATEMENTS
We have audited the accompanying consolidated balance sheets of SSA as of September 30, 2009, and the related
consolidated statements of net cost and of changes in net position, and the combined statement of budgetary
resources for the year then ended and the statement of social insurance as of January 1, 2009. These financial
statements are the responsibility of SSA’s management. Our responsibility is to express an opinion on these
financial statements based on our audits.

The consolidated balance sheets of SSA as of September 30, 2008, and the related consolidated statements of net
cost and of changes in net position, and the combined budgetary resources for the year ended, and the statement of
social insurance as of January 1, 2008, 2007, and 2006 were audited by other auditors whose report dated
November 7, 2008 expressed an unqualified opinion on those statements. Their report thereon has been furnished to
us, and our opinion expressed herein, insofar as it relates to the amounts as of and for the year ended
September 30, 2008, is based solely on the report of the other auditors.
We conducted our audit in accordance with auditing standards generally accepted in the United States of America;
the standards applicable to financial audits contained in Government Auditing Standards, issued by the Comptroller
General of the United States; and Office of Management and Budget (OMB) Bulletin No. 07-04, Audit
Requirements for Federal Financial Statements. Those standards require that we plan and perform the audit to
obtain reasonable assurance about whether the financial statements are free of material misstatement. An audit
includes examining, on a test basis, evidence supporting the amounts and disclosures in the financial statements.
Page 2 - The Honorable Michael J. Astrue

An audit also includes assessing the accounting principles used and significant estimates made by management as
well as evaluating the overall financial statement presentation. We believe that our audit and the report of other
auditors provide a reasonable basis for our opinion.

In our opinion, based on our audit and the prior year audit reports of other auditors, the financial statements referred
to above and appearing on pages 92 through 123 of this Performance and Accountability Report (PAR), present
fairly, in all material respects, the financial position of SSA as of September 30, 2009 and 2008, and its net cost of
operations, changes in net position, budgetary resources for the years then ended, and the financial condition of its
social insurance program as of January 1, 2009, January 1, 2008, January 1, 2007, and January 1, 2006, in
conformity with accounting principles generally accepted in the United States of America.

Our audit was conducted for the purpose of forming an opinion on the financial statements of SSA taken as a whole.
The additional information presented on the statement of social insurance as of January 1, 2009, January 1, 2008,
January 1, 2007, and January 1, 2006 is not a required part of the financial statements and is presented for purposes
of additional analysis. Such information has been subjected to the auditing procedures applied in the audit of the
financial statements and, in our opinion, are fairly stated in all material respects in relation to the consolidated and
combined financial statements taken as a whole.

As discussed in Note 17 to the financial statements, the statements of social insurance present the actuarial present
value of SSA’s estimated future income to be received from, or on behalf of, the participants and estimated future
expenditures to be paid to, or on behalf of, participants during a projection period sufficient to illustrate long-term
sustainability of the social insurance program. In preparing the statements of social insurance, management
considers and selects assumptions and data that it believes provide a reasonable basis for the assertions in the
statements. However, because of the large number of factors that affect the statements of social insurance and the
fact that future events and circumstances cannot be known with certainty, there will be differences between the
estimates in the statements of social insurance and the actual results, and those differences may be material.

REPORT ON MANAGEMENT’S ASSERTION ABOUT THE EFFECTIVENESS OF
INTERNAL CONTROL
We have also examined management’s assertion, included in the accompanying Federal Managers’ Financial
Integrity Act (FMFIA) Assurance Statement on page 41 of this PAR that SSA’s internal control over financial
reporting was operating effectively as of September 30, 2009 based on criteria established under OMB Circular A-
123, Management's Responsibility for Internal Control. We did not test all internal controls relevant to the
operating objectives broadly defined by the Federal Managers’ Financial Integrity Act of 1982, such as those
controls relevant to preparing statistical reports and ensuring efficient operations. SSA’s management is responsible
for maintaining effective internal control over financial reporting. Our responsibility is to express an opinion on
management’s assertion based on our examination.

Our examination was conducted in accordance with attestation standards established by the American Institute of
Certified Public Accountants (AICPA); the standards applicable to financial audits contained in Government
Auditing Standards, issued by the Comptroller General of the United States; and OMB Bulletin No. 07-04 and,
accordingly, included obtaining an understanding of the internal control, testing and evaluating the design and
operating effectiveness of the internal control, and performing such other procedures as we considered necessary in
the circumstances. We believe that our examination provides a reasonable basis for our opinion.

Because of inherent limitations in any internal control, misstatements due to error or fraud may occur and not be
detected. Also, projections of any evaluation of the internal control to future periods are subject to the risk that the
internal control may become inadequate because of changes in conditions, or that the degree of compliance with the
policies or procedures may deteriorate.

In our opinion, management’s assertion that SSA’s internal control over financial reporting was operating
effectively as of September 30, 2009, is fairly stated, in all material respects, based on criteria established under
OMB Circular A-123.
Page 3 - The Honorable Michael J. Astrue

However, our work identified the need to improve certain internal controls, as described below and in a separate,
limited-distribution management letter. As defined by OMB Bulletin No. 07-04 (updated via M-08-24), a
significant deficiency is a deficiency in internal control, or a combination of deficiencies, that adversely affects the
entity’s ability to initiate, authorize, record, process, or report financial data reliably in accordance with generally
accepted accounting principles such that there is more than a remote likelihood that a misstatement of the entity’s
financial statements that is more than inconsequential will not be prevented or detected. A material weakness is a
significant deficiency, or combination of significant deficiencies, that result in a more than remote likelihood that a
material misstatement of the financial statements will not be prevented or detected. This material weakness
definition aligns with the same material weakness definition used by management to prepare the Agency’s FMFIA
assurance statement. This deficiency in internal control, although not considered to be a material weakness,
represents a significant deficiency.

Significant Deficiency

SSA Needs to Further Strengthen Controls to Protect Its Information
Since FY 2005, the Agency has made significant progress in identifying and establishing a baseline for security
access or "profiles" to their financially significant mainframe applications, security administration tools, and
operating systems. However, we note the need for continued progress regarding the process to periodically re-
certify this security access. Testing disclosed that a policy and procedure had not been established and consistently
implemented across the Agency to periodically reassess the content of security access to ensure that employees and
contractors are given least privilege access to perform their job responsibilities. During the audit, SSA management
was unable to consistently provide documented evidence that security accesses were reviewed by management to
determine that the system datasets, transactions, and resources for mainframe hosted applications, including
financially significant systems and related tools, were in-line with the concept of least privilege.

Specific disclosure of detailed information about these exposures might further compromise controls and are
therefore not provided within this report. Rather, the specific details of weaknesses noted are presented in a
separate, limited-distribution management letter.

The need for a strong security program to address threats to the security and integrity of SSA operations grows and
transforms as the Agency continues to progress with plans to increase dependence on the Internet and Web-based
applications to serve the American public. Clear, continued, and measurable progress has been made toward the
establishment of a strong overall security program. However, to more fully protect SSA from risks associated with
the loss of data, loss of other resources, or compromised privacy of information associated with SSA’s enumeration,
earnings, retirement, and disability processes and programs, SSA management must further strengthen its security
program. Specifically, further progress is needed in the area of access assignments to application systems data and
programs by SSA personnel, including the continual review of systems access via the periodic review of the content
of profiles.

Recommendations
We recommend that SSA management implement a policy that requires a periodic review of the content of the
Agency's profiles. The scope of the policy should include profiles that are Agencywide and those locally owned by
divisions and/or components. The process should allow for and enforce a consistent approach for review and should
require auditable artifacts to evidence the completion of these reviews. More specific recommendations focused on
the individual exposures we identified are included in a separate, limited-distribution management letter.

We noted other matters involving the internal control and its operation that we will communicate in a separate letter.

REPORT ON COMPLIANCE AND OTHER MATTERS
SSA management is responsible for compliance with laws and regulations. As part of obtaining reasonable
assurance about whether the financial statements are free of material misstatement, we performed tests of the
compliance with laws and regulations including laws governing the use of budgetary authority, Government-wide
Page 4 - The Honorable Michael J. Astrue

policies and laws identified in Appendix E of OMB Bulletin No. 07-04 and other laws and regulations,
noncompliance with which could have a direct and material effect on the financial statements. Under FFMIA, we
are required to report whether SSA’s financial management systems substantially comply with the Federal financial
management systems requirements, applicable Federal accounting standards, and the United States Government
Standard General Ledger at the transaction level. To meet this requirement, we performed tests of compliance with
FFMIA, section 803(a), requirements.

We did not test compliance with all laws and regulations applicable to SSA. We limited our tests of compliance to
the provisions of laws and regulations cited in the preceding paragraph of this report. Providing an opinion on
compliance with those provisions was not an objective of our audit and, accordingly, we do not express such an
opinion.

The results of our tests of compliance disclosed no instances of noncompliance with laws and regulations or other
matters that are required to be reported by Government Auditing Standards or OMB Bulletin No. 07-04 and no
instances of substantial noncompliance that are required to be reported under FFMIA.

CONSISTENCY OF OTHER INFORMATION
The Management’s Discussion and Analysis (MD&A) included on pages 5 through 44, and Required
Supplementary Information (RSI) included on pages 1 and 124 through 144 of this PAR are not a required part of
the financial statements but are supplementary information required by the Federal Accounting Standards Advisory
Board and OMB Circular No. A-136, Financial Reporting Requirements. We have applied certain limited
procedures, which consisted principally of inquiries of management regarding the methods of measurement and
presentation of the MD&A and RSI. We compared this information for consistency with the financial statements
and discussed the methods of measurement and presentation with SSA officials. On the basis of this limited work,
we found no material inconsistencies with the financial statements; U.S. generally accepted accounting principles, or
OMB guidance. However, we did not audit the information and express no opinion on it.

Our audit was conducted for the purpose of forming an opinion on the financial statements of SSA taken as a whole.
The Schedule of Budgetary Resources, included on page 128 of this PAR, is not a required part of the financial
statements but is supplementary information required by OMB Circular No. A-136, Financial Reporting
Requirements. This information and the consolidating and combining information included on pages 124 to 127 of
this PAR are presented for purposes of additional analysis and are not a required part of the financial statements.
Such information has been subjected to the auditing procedures applied in the audit of the financial statements and,
in our opinion, are fairly stated in all material respects in relation to the financial statements taken as a whole.

The other accompanying information included on pages 2 through 4, 44 through 91, 145, 146, and 155 to the end of
this PAR, is presented for purposes of additional analysis and is not a required part of the financial statements. Such
information has not been subjected to the auditing procedures applied in the audit of the financial statements and,
accordingly, we express no opinion on it.

                                          ***********************

This report is intended solely for the information and use of management and the Inspector
General of SSA, OMB, the Government Accountability Office, and Congress and is not intended
to be and should not be used by anyone other than these specified parties. However, this report
is a matter of public record, and its distribution is not limited.




                                                       Steven L. Schaeffer, C.P.A.
                                                       Assistant Inspector General for Audit
